               Department of Veterans Affairs
               Office of Inspector General



                 Office of Healthcare Inspections

Report No. 12-03887-319



             Healthcare Inspection 


Inadequate Staffing and Poor Patient 

 Flow in the Emergency Department 

  VA Maryland Health Care System 

         Baltimore, Maryland 





September 18, 2013

                      Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations:
                    Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
                      Web site: www.va.gov/oig
Inadequate Staffing and Poor Patient Flow in the Emergency Department, VA Maryland HCS, Baltimore, MD



                                 Executive Summary 

The VA Office of Inspector General Office of Healthcare Inspections evaluated the
validity of allegations about the Emergency Department (ED) at the Baltimore VA
Medical Center (facility), which is part of the VA Maryland Health Care System (system).
A complainant alleged that because of severe shortages of beds and staff, patients had
prolonged ED stays and were inappropriately left unmonitored for extended periods.
The complainant also described poor patient flow and dysfunctional administrative
processes.

We substantiated that there were staff shortages and found that the facility did not have
contingency plans for ED staffing during periods of increased demand for patient care.
The facility did not have a diversion policy as required by VHA. We found problems with
patient flow from the ED to inpatient areas, and noted that data used by the facility to
address flow issues was inaccurate. We also found a shortage of specialty (telemetry
and isolation) beds; however, the facility had already initiated plans to expand
specialized bed capacity. Further, we found that poor communication and sub-optimal
composition of the Patient-Flow Committee contributed to deficiencies in the delivery of
care.

We recommended that the Facility Director:

      Ensure that action plans address ED patient flow and length of stay, including
       specialty bed access.
      Develop an ED staffing policy that includes a contingency plan for additional
       physician and nurse staffing when patient care demands exceed available
       staffing resources.
      Ensure that data collection and the reporting process are strengthened.
      Ensure that a local diversion policy is developed and implemented.
      Ensure that the patient flow committee meets regularly, membership is reviewed
       for appropriateness, and follow-up actions are monitored.

Comments
The Veterans Integrated Service Network and Facility Directors concurred with our
recommendations and provided an acceptable action plan. (See Appendixes A and B,
pages 10–16 for the Directors’ comments.) We will follow up on the planned actions
until they are completed.




                                                              JOHN D. DAIGH, JR., M.D.
                                                             Assistant Inspector General for
                                                               Healthcare Inspections



VA Office of Inspector General                                                                          i
Inadequate Staffing and Poor Patient Flow in the Emergency Department, VA Maryland HCS, Baltimore, MD



                                                Purpose 

The VA Office of Inspector General (OIG) conducted an investigation to determine the
validity of allegations regarding the emergency department (ED) at the Baltimore VA
Medical Center (facility), Baltimore, MD. A complainant alleged that:

    	 There were severe personnel shortages.
    	 Because of inadequate access to acute care telemetry1 and isolation beds,
       patients had to wait in the ED for hours, sometimes more than 24 hours.
    	 Patients were seated in chairs in the ED hallway while waiting for monitored beds
       to become available, and staff did not attend to them.
    	 The Patient Flow Committee had not met in five months.

                                            Background 

The Veterans Affairs (VA) Maryland Health Care System (system) is part of Veterans
Integrated Service Network (VISN) 5. The system consists of three campuses, the
Baltimore VA Medical Center (facility), the Perry Point VA Medical Center, and the Loch
Raven VA Community Living & Rehabilitation Center, as well as five community based
outpatient clinics. The system is affiliated with the University of Maryland School of
Medicine and other local colleges and universities. The facilty, with its ED and 137
beds, provides acute medical and surgical services.

Veterans Health Administration (VHA) policy requires ED Registered Nurses (RNs) to
use the Emergency Severity Index (ESI)2 to triage patients who present to the ED for
care. According to VHA Handbook 1101.05, “The ESI triage algorithm yields rapid,
reproducible, and clinically relevant stratification of patients into five groups and
provides a method for categorizing ED patients by both acuity3 and resource needs.”4
ESI Level 1 patients require immediate physician involvement. ESI Level 2 patients
have high risk and time sensitive conditions; this group includes suicidal and homicidal
patients. Patients assigned ESI Levels 3 and 4 have lower acuity and require fewer
resources, such as laboratory and radiology services, intravenous fluids or medications,
and specialty consultation. ESI Level 5 patients have lower acuity and are not expected
to require additional resources.

Overcrowding in EDs, with provision of medical care in makeshift areas such as
hallways, has long been associated with higher than normal patient-to-nurse ratios.5

1
  Telemetry is the monitoring of patients’ vital signs using a life-sign measurement device, such as an

electrocardiogram.

2
  http://www.ahrq.gov/legacy/research/esi/esi1.htm. Accessed April 5, 2013. 

3
  Acuity level refers to the severity of an illness. 

4
  VHA Handbook 1101.05, Emergency Medicine Handbook, May 12, 2010. 

5
  Cowan RM, Trzeciak S., Clinical review: Emergency department overcrowding and the potential impact on the

critically ill, Critical Care. 2005;9 (3):291-295.



VA Office of Inspector General                                                                                 1
Inadequate Staffing and Poor Patient Flow in the Emergency Department, VA Maryland HCS, Baltimore, MD



ED crowding is the result of “boarding” (holding) patients in the ED until an inpatient bed
is available.6 This practice deprives patients of the services, expertise, and equipment
available on inpatient units and may contribute to morbidity and mortality.7

Length of stay (LOS) for ED is defined from the time of a patient’s arrival to ED
disposition, such as admission, transfer, or discharge and is used as a key indicator of
adequate patient flow. VHA’s target for ED LOS is that no more than 10 percent of
patients in the ED should experience a LOS greater than 6 hours.8 Extended LOS
resulting from crowding can lead to patients leaving without being seen, compromised
medical care,9 and patient complaints. In recent years, VHA has emphasized the need
for optimal patient flow to ensure the delivery of the right care at the right time and at the
right place.10

                                 Scope and Methodology

We conducted a site visit November 13–15, 2012. We reviewed standards from The
Joint Commission, American College of Emergency Physicians, Emergency Nurses
Association, and VHA Quality Metrics. We reviewed VHA and local policies, committee
minutes, data from ED Integrated Software (EDIS), Patient Advocate Tracking System
(PATS), and other relevant documents. The facility did not have a diversion policy as
required by VHA. We also reviewed the electronic health records (EHRs) of patients
treated in the facility’s ED during the timeframe of the allegations.

To evaluate the allegation that there were personnel shortages in the ED, we compared
physician staffing data and the surge-physician supplemental plan, a plan to augment
ED staffing when the number of patient visits exceeded the ability of available providers
to deliver safe care. We selected 2 days with a high-volume of patients and an
excessive LOS and reviewed actual physician staffing and the use of the surge-
physician plan for those days. Additionally, we reviewed the facility’s local ED RN
staffing plan levels, and selected 5 days including one holiday and four high-volume
weekdays. We reviewed the same source (original) ED staffing sheets from the
requested days and compared required staffing with actual staffing for each 24-hour
period.

To evaluate excessive LOS in the ED, we reviewed EDIS data, patient census reports,
and the EHRs of a sample of patients. We compared the facility’s EDIS and LOS data,
and performed a detailed analysis of a sample of 20 ED admissions on
two high-volume days.

6
  http://www.acep.org/Content.aspx?id=29132, accessed 7/2/2013. 

7
  Sun, Benjamin, et al, Effect of Emergency Department Crowding on Outcomes of Admitted Patients, Annals of 

Emergency Medicine, December 10, 2012. 

8
  Day, Theodore E et al, Decreased Length of Stay After Addition of Healthcare Provider in Emergency Department 

Triage, Emergency Medicine Journal, 2013;30(2):134-138. 

9
  IOM report: The Future of Emergency Care in the United States Health System. Institute of Medicine. 

Academy of Emergency Medicine, 2006;13(10):1081-1085. 

10
   In 2006, the Veterans Health Administration launched a Flow Improvement Initiative (FIX). 



VA Office of Inspector General                                                                                2
Inadequate Staffing and Poor Patient Flow in the Emergency Department, VA Maryland HCS, Baltimore, MD



We interviewed the facility’s Director, Chief of Staff, ED Chief Medical Officer, ED
physicians and nurses, nurse managers, and other clinical, administrative, and quality
management staff with knowledge relevant to the allegations.

We conducted the investigation in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.

                                    Inspection Results

Issue 1: ED Staffing

We substantiated the allegation of inadequate ED staffing.

ED Physician Staffing

VHA requires that facility leadership adequately staff the ED with qualified providers and
develop a local staffing policy to address the number of providers needed during all
hours of operation. Due to the complexity of the patient population in VHA, it is
recommended using 2.0 patients per hour as the baseline rate for VHA emergency
medicine physicians.11 However, ED patient volumes and hourly visits must be
monitored to determine the ideal staffing pattern throughout the day. The facility’s
policy should also provide contingency plans for augmenting ED staffing when the
number of patient visits exceeds the ability of available providers to deliver safe care.12

The facility contracted with the University of Maryland Medical Center (U of M) for
physician services to provide emergency services to the facility. Although this contract
included a surge-physician contingency plan, we found that the surge-physician roster
was not utilized on days with high patient volume and excessive LOS in the facility’s ED.
The ED Medical Director was the only physician to provide limited supplemental
staffing.

ED Nurse Staffing

We substantiated the allegation that ED nurse staffing was not in compliance with the
local staffing standard.

VHA Directive 2010-034 provides a nationally standardized method of determining
appropriate direct care staffing levels for VA nursing personnel. The ED will be included
in the second phase of development of this Directive in 2013. VHA uses the
Emergency Nurses Association nurse staffing standard, which requires a minimum of
two RNs be available at all times for direct patient care for level 1 EDs.13 In addition to
adhering to the Emergency Nurses Association’s RN staffing standards, the facility
11
   VHA Directive 2010-010, Standards for Emergency Department and Urgent Care Clinic Needs in VHA, March 2,

2010. 

12
   VHA Directive 2010-010. 

13
   VHA Directive 2010-034 Staffing Methodology for VHA Nursing Personnel, July 19, 2010.



VA Office of Inspector General                                                                            3
Inadequate Staffing and Poor Patient Flow in the Emergency Department, VA Maryland HCS, Baltimore, MD



developed its own staffing methodology for the ED. We reviewed the facility’s staffing
plan, the same source (original) staffing record sheets from the requested days, and
compared required staffing with actual staffing for each 24-hour period. The facility did
not meet its required RN staffing in 3 of the 5 days reviewed. Although the night-shift
staffing levels of three nurses met standards, we learned through interviews that
extenuating circumstances sometimes prevented the night nurses from being able to
triage walk-ins, or provide quality care to patients. For example, if a patient had an
order for a computed tomography scan or ultrasound, two nurses were required to
transport the patient to the radiology department or across the street to U of M for the
procedure. This left one nurse remaining in the ED to cover the duties of three in
managing ED patients.

The ED did not have its own per-diem nurse pool, nor did it have an on-call plan for its
staff to provide contingency nurse coverage, when needed. The ED, according to local
practice, relies on the nurse staffing office to provide additional staff. After reviewing
staffing documents, we found that, at times, RN staff were supplemented by two health
technicians or Certified Nursing Assistants. The nurses stated that the acute care units
received priority for staffing needs.

Although we did not find examples of patients suffering adverse events due to staffing
shortages, we did find a dedicated staff that felt frustrated by what they perceived as an
inability to provide the quality of care their patients deserved due to staffing shortages.

Issue 2: Excessive ED LOS

We substantiated the allegation of excessive LOS and boarding in the ED.

VHA established targets requiring that no more than 10 percent of ED patients have
LOS longer than 6 hours.14 The American College of Emergency Physicians defines
“boarding” as the practice of holding patients in the ED after the decision to admit has
been made. Boarding causes overcrowding in the ED, usually occurs because no
inpatient beds are available,15 and impacts throughput in various hospital areas. VHA
requires that facilities use EDIS software to track and manage patient throughput.16

We found that senior leadership reviewed daily EDIS reports and based management
decisions using EDIS data; however, they did not review detailed LOS data. We
compared the facility’s EDIS and LOS data, and noted significant discrepancies.
A detailed analysis of a random sample showed 9 of 20 patients had a LOS longer than
6 hours and 6 of the 20 patients had a LOS longer than 12 hours. The average LOS for
this sample was 7.9 hours. The majority of staff we interviewed reported that ED wait
time often exceeded 12 hours. A review of PATS reports showed that patients often
complained about lengthy wait times in the ED.

14
   VHA Quality Metrics; Day, Theodore E et al, Decreased Length of Stay After Addition of Healthcare Provider in

Emergency Department Triage, Emergency Medicine Journal, 2013;30(2):134-138. 

15
   http://www.acep.org/Content.aspx?id=75791 accessed December 11, 2012. 

16
   VHA Directive 2011-029, Emergency Medicine Integration Software Tracking (EDIS) for Tracking Patient

Activity in VHA Emergency Departments and Urgent Care Clinics, July 15, 2011.



VA Office of Inspector General                                                                                 4
Inadequate Staffing and Poor Patient Flow in the Emergency Department, VA Maryland HCS, Baltimore, MD



Due to frequent patient overflow and lack of available beds in the ED, staff had reserved
a section of the ED to accommodate wheelchairs against a wall and referred to it as the
“chair wall.” Overflow patients were placed in wheelchairs while waiting for ED beds to
become available. Nurses were responsible for the care of “chair wall” patients while
simultaneously caring for their assigned patients. We found this to be indicative of a
systemic problem in patient flow and a potential risk to patient safety.

The following case studies are examples of excessive LOS:

 Case                      Patient History                    ESI*         Disposition          ED LOS**
              61-year-old (y/o) man with lethargy                        Returned to an
       1      and low blood pressure attributed to              3        assisted living        19h 34m
                         dehydration.                                        facility
              59 y/o woman with palpitations and                          Admitted to a
       2                                                        3                                24h 8m
                        tachycardia.                                      telemetry unit
              64 y/o man with left sided weakness
                                                                        Transferred to a
       3        and falls; brain imaging showed                 3                                  12h
                                                                        non-VA hospital
                   large subdural hematoma.
              55 y/o man with shortness of breath                         Admitted to a
       4                                                        2                                8h 13m
                 and lower extremity swelling.                            telemetry unit

               52 y/o man with schizophrenia and                        Transferred to a
       5                                                        2                                  22h
                   suicidal/homicidal ideation.                         non-VA hospital

 * Emergency Severity Index
** Emergency Department Length of Stay

Issue 3: Diversion

We found that executive leaders did not have a plan for diversion and did not articulate
the impact of not having a plan on the input, throughput, and output of patients in the
ED, nor on the ability of staff to provide ED services.

VHA Handbook defines “diversion” as a situation in which patients who would normally
be treated by the facility cannot be accepted for admission due to any of the following
reasons: the appropriate beds are not available, needed services cannot be provided,
staffing is inadequate and acceptance of another patient would jeopardize the ability to
properly care for those already at the facility, or disaster has disrupted normal
operations. VHA requires each facility to have a diversion policy that includes clear
indications on when to use diversion. A diversion policy must also include plans for
supplemental staffing, equipment, supplies, and support services necessary to provide
appropriate care delivered consistently and timely, 24 hours a day, 7 days a week.17


17
     VHA Directive 2009-069 VHA Medical Facility Emergency Department Diversion Policy, December 16, 2009.


VA Office of Inspector General                                                                               5
Inadequate Staffing and Poor Patient Flow in the Emergency Department, VA Maryland HCS, Baltimore, MD



We found that when the facility was unable to provide a bed and/or the needed
services, patients with acute medical conditions were transferred to the adjoining U of M
hospital. However, the lack of a diversion policy and its required supplemental staffing
plan contributed to delays in patient care and resulted in increased LOS.

Issue 4: Lack of Specialized Beds

We substantiated the allegation that there was a shortage of specialized beds.

The Joint Commission requires that hospitals plan for the safe and effective care of
patients placed in overflow locations, including EDs.18 We found that the facility had a
shortage of inpatient specialty beds to accommodate patients admitted for telemetry,
behavioral health, and isolation.

The ED had 12 telemetry beds and one portable telemetry unit. We were informed that
there were times when the demand for telemetry exceeded available ED telemetry
monitors. Because of a high demand for telemetry beds in the ED, staff rotated patients
off-and-on telemetry equipment as clinically indicated. In addition, we found that there
were limited inpatient isolation rooms. The facility recognized the high demand for
specialty services and their limited capacity to meet that demand. The facility had plans
to increase the numbers of inpatient isolation rooms and telemetry beds and expand the
ED.

Based on our review of records and interviews with staff, we found no evidence of direct
patient harm caused by increased LOS due to lack of specialized beds. However,
systemic patient flow problems increased patient vulnerability to adverse events.

Issue 5: Patient Flow Committee

We substantiated the allegation that the facility’s Patient Flow Committee had not met in
several months.

The facility policy memorandum on patient flow requires that the committee meet
monthly. We reviewed meeting minutes and interviewed committee members and
found that the committee had met only once in the 5 months prior to our site visit.

Because patient flow is a system-wide issue involving throughput in various areas,
committee membership should reflect representation from each of those areas. Our
review of meeting minutes and interviews with staff members revealed that key
positions, such as nurse managers from telemetry units, inpatient units, and the
intensive care unit, were not invited to participate in committee meetings.

A Patient Flow Center was designed to coordinate activities of patient admissions and
patient flow coordinators and opened in January 2013. In preparation, an ad hoc
committee was organized to design and plan for the Center. We found that the ad hoc


18
     Joint Commission Accreditation Guide for Hospitals 2012, Standard LD.04.03.11.


VA Office of Inspector General                                                                          6
Inadequate Staffing and Poor Patient Flow in the Emergency Department, VA Maryland HCS, Baltimore, MD



committee did not communicate its activities to front line staff, and therefore, severely
limited the committee’s effectiveness in addressing patient flow issues.

Issue 6: Communication

The majority of staff described an ED work environment that was not conducive to
quality patient care, effective teamwork, or excellent customer service. Although the ED
had a knowledgeable, dedicated staff, lack of communication, high patient volume
stressors, and the perceived absence of leader involvement impeded efforts to improve
patient flow.

We found opportunities to improve communication on multiple levels among ED nursing
staff and physicians, between ED clinical leadership and nursing staff, and between
executive leaders and front line staff, such as ED nurses, providers, and patient flow
staff.

The Fast-Track area within the ED facilitates care of ESI patients having acuity levels of
4 and 5. The goal of Fast-Track was to improve the ED flow of low-acuity patients and
reduce their LOS. This was to be accomplished by dedicating staff to the area;
however, according to the ED nurse manager and charge-nurses, they frequently could
not provide a dedicated nurse for Fast-Track. Medical residents and providers staffed
the area while a nurse, usually the charge-nurse, covered Fast-Track as workload
permitted. We found that patients with ESI scores of 3 (not considered low-acuity) were
placed in Fast-Track for observation and treatment even though the area had minimal
staff and no monitoring capability. Consequently patients, including those with higher
acuity (such as asthma patients), waited for medication and treatment until a nurse was
available. Some providers insisted on seeing patients in Fast-Track even when they
were informed that it was closed due to insufficient staffing.

In another example of poor communication, nursing staff were not involved in or aware
of a decision that had been approved by the ED nurse manager for them to initiate
admission assessments on patients boarded in the ED and document the assessments
in the patient’s EHR.

We also identified problems with communication between ED staff and patients/families.
Patient complaints about the ED usually involved wait times and poor communication
from staff to patients/families. Patients reported that staff did not explain the reasons for
the long delays. In some cases, patients waiting in the ED for a long time for an
inpatient bed were told by ED staff that there were no available inpatient beds only to be
told by the inpatient staff that the bed had been available all day.

VHA requires that staff trend, report, and distribute quarterly reports based on data from
PATS and identify opportunities for system improvements based on quarterly complaint
trending. We reviewed the PATS data for the ED and found 69 complaints specific to
the ED during October 2011–September 2012. We found no evidence that ED
managers had received, requested, tracked, or analyzed PATs data for opportunities to
improve.



VA Office of Inspector General                                                                          7
Inadequate Staffing and Poor Patient Flow in the Emergency Department, VA Maryland HCS, Baltimore, MD



                                         Conclusions 

We substantiated that there were staffing shortages in the ED. Although providers had
an existing “surge plan” to provide supplemental staffing for days when there was a high
volume of patients, it was not utilized. ED nurse staffing was less than required staffing
as outlined in the facility’s staffing plan. Further, there was no on-call plan for
supplemental staff nurses.

We found that LOS for patients in the ED exceeded VHA’s standard. Although the
facility used EDIS data routinely for decision making, the data did not accurately reflect
actual ED LOS. The facility did not have a diversion policy, as required by VHA. We
also substantiated that patients requiring telemetry were sometimes unmonitored.
Although clinical judgment was used to rotate patients off and on telemetry, and while
no adverse events had been reported, there was potential for an adverse event to
occur.

The shortages of staffing and beds, along with an absence of a diversion policy,
negatively impacted quality of care, including the ED staff’s ability to adequately handle
and treat patients and manage LOS. We found that when ED census exceeded
capacity other problems resulted. For example, an overflow of patients in the ED led to
patients being examined in the triage area without visual or auditory privacy, and other
quality of care concerns.

Challenges with teamwork and effective communication existed among leaders and
staff in and outside the ED. The patient flow committee did not have leadership
support; therefore, its membership, attendance, and effectiveness were questionable.
The ED staff utilized coping mechanisms instead of problem solving and came to accept
stress and frustration as the norm. Leadership, on all levels, did not effectively address
the needs and concerns of the ED staff.

                                   Recommendations

1. We recommended that the Facility Director develop action plans that address
emergency department patient flow and length of stay, including specialty bed access.

2. We recommended that the Facility Director develop an emergency department
staffing policy that includes a contingency plan for additional physician and nurse
staffing when patient care demands exceed available staffing resources.

3. We recommended that the Facility Director ensure that data collection and the
reporting process are strengthened.

4. We recommend that the Facility director ensure that a local diversion policy is
developed and implemented.




VA Office of Inspector General                                                                          8
Inadequate Staffing and Poor Patient Flow in the Emergency Department, VA Maryland HCS, Baltimore, MD



5. We recommended that the Facility Director ensure that the patient flow committee
meets regularly, membership is reviewed for appropriateness, and follow-up actions are
monitored.




VA Office of Inspector General                                                                          9
Inadequate Staffing and Poor Patient Flow in the Emergency Department, VA Maryland HCS, Baltimore, MD
                                                                                           Appendix A
                            VISN Director Comments


               Department of
               Veterans Affairs                                       Memorandum


   Date:       August 2, 2013

   From:       Director, VA Capitol Health Care Network (10N5)

   Subject: Healthcare Inspection – Inadequate Staffing and Poor Patient
            Flow in the Emergency Department, VA Maryland Health Care
            System (VAMHCS), Baltimore, MD

   To:         Director, Baltimore Office of Healthcare Inspections (54BA)

               Acting Director, Management Review Service (VHA 10AR
               MRS OIG Hotline)

               1. We appreciate the opportunity to review and provide comments
               to the draft report of the VA Office of Inspector General Healthcare
               Inspections’ review of the Emergency Department at the VA
               Maryland Health Care System (VAMHCS) Baltimore, Maryland on
               November 13-15, 2012. The findings and recommendations have
               been reviewed with senior leadership at the VISN and the
               VAMHCS.

               2. We concur with the recommendations in this report. The
               VAMHCS staff has already begun to implement improvement
               actions.
               3. If you have any questions, please contact my office at
               410-691-1131.




VA Office of Inspector General                                                                          10
Inadequate Staffing and Poor Patient Flow in the Emergency Department, VA Maryland HCS, Baltimore, MD
                                                                                           Appendix B
                         Facility Director Comments


               Department of
               Veterans Affairs                                       Memorandum


   Date:       July 26, 2013

   From:       Director, VA Maryland Health Care System, Baltimore, MD
               (512)

   Subject: Healthcare Inspection – Inadequate Staffing and Poor Patient
            Flow in the Emergency Department, VA Maryland Health Care
            System, Baltimore, MD

   To:         Director, VA Capitol Health Care Network (10N5)

               1. I appreciate the opportunity to review and provide comments to
               the draft report of the VA Office of Inspector General Healthcare
               Inspections’ review of the Emergency Department at the VA
               Maryland Health Care System (VAMHCS) Baltimore, Maryland on
               November 13-15, 2012. The findings and recommendations have
               been reviewed with senior leadership at the VAMHCS.
               2. I concur with the recommendations in the report. The VAMHCS
               staff has already begun to implement improvement actions.
               3. If you have any questions, please contact my office at
               410-605-7016.




VA Office of Inspector General                                                                          11
Inadequate Staffing and Poor Patient Flow in the Emergency Department, VA Maryland HCS, Baltimore, MD



                         Comments to OIG’s Report
The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1.           We recommended that the VISN Director ensure the Facility
Director develop action plans that address emergency department patient flow and
length of stay, including specialty bed access.

Concur

Target date for completion:

LOS and Specialized Beds: May 2013 

Telemetry Beds: October 2013 (based on arrival of equipment)


Facility response:

Excessive ED LOS

The implementation of the Patient Flow Center, the addition of more Mental Health beds
and an improved transfer process for Mental Health patients have all helped to reduce
the ED average length of stay for patients who are admitted. Emergency Department
Information System (EDIS) data shows that for patients admitted from the ED, there has
been improvement with recent data reflecting between 11-12% of admitted patients
having a stay > 6 hours. An assessment of the data for patients staying > 6 hours
shows that the common reason for patients to remain in the ED is the need for active
treatment for intoxication prior to a meaningful assessment for a mental health concern.
Since January 2013, the average visit time for patients not admitted to the hospital has
been between 3 and 4 hours. The rate of patients who “left without being seen” has
also shown improvement with a monthly level below 1%, which compares favorably with
previous levels of 4-5% monthly in the past and the national ED average of 2.7%.

The ED staff have collected data and studied a number of factors that may increase
length of stay, including the time to complete imaging studies and lab work, delays with
giving report, and inaccurate data from failure to remove patients from EDIS board in a
timely manner. Based on EDIS data, a process improvement action was undertaken to
give EDIS access to the VAMHCS Bed Coordinator who now changes the patient’s
status to “admit” once she receives the admission white card. The improvement in data
accuracy helps in the identification of true bottlenecks in the patient flow process. There
are still challenges with the use of the EDIS program and the interpretation of its data.
An updated version of EDIS is to be released this fall and it is hopeful that the revised
version will improve ease of use, which will in turn improve the accuracy of data
collected by the system.

Lack of Specialized Beds


VA Office of Inspector General                                                                          12
Inadequate Staffing and Poor Patient Flow in the Emergency Department, VA Maryland HCS, Baltimore, MD




The availability of some types of specialized beds has been limited at VAMHCS due to
construction initiatives in Mental Health and the lack of an adequate number of
Telemetry beds. The issue with the lack of Mental Health beds has been resolved with
the completion of construction on the Baltimore acute mental health inpatient unit.
There are now 18 beds on the 6A Mental Health acute care ward in Baltimore. A
dedicated Mental Health transfer coordinator works with the VAMHCS Mental Health
staff to help in the transition of patients who no longer need care on the locked inpatient
ward at Baltimore to more appropriate levels of care within our system. With the
completion of construction on the inpatient ward and the improvement in the intra-facility
transfers within Mental Health, there has an improvement in the availability of Mental
Health beds, which reduces the length of stay for patients in the ED awaiting admission
to Mental Health. On review of EDIS data, the most common reason for a patient who
presents for Mental Health evaluation to have a >6 hour stay in the ED is for the
treatment of acute ETOH intoxication which must be initiated so that an accurate Mental
Health assessment can be performed to determine the most appropriate disposition for
the patient.

The VAMHCS has recognized the need for additional inpatient telemetry beds.
VAMHCS has obligated monies and placed an order to purchase telemetry monitors for
all beds on the inpatient 3B Medicine ward. Funding for the telemetry equipment will
increase the telemetry beds on 3B to 32 beds. Two additional Telemetry beds were
opened in December 2012, increasing the beds from 12 to 14. Additionally, the ED will
receive additional telemetry monitors to increase our capacity to 17 telemetry-monitored
beds. In the interim, the ED has obtained an additional portable cardiac monitor to
ensure that all patients who require cardiac monitoring while in the ED are placed on a
telemetry monitor.

Recommendation 2. We recommended that the Facility Director develop an
emergency department staffing policy that includes a contingency plan for additional
physician and nurse staffing when patient care demands exceed available staffing
resources.

Concur

Target date for completion: May 2013

Facility response:

ED Physician Staffing

ED patient volumes and hourly number of visits are monitored daily via the EDIS. The
EDIS data is summarized and sent to ED and Executive Office staff for daily review at
our morning report meeting. EDIS data is also presented at the monthly Emergency
and Compensation & Pension Clinical Center (ECCC) meeting.




VA Office of Inspector General                                                                          13
Inadequate Staffing and Poor Patient Flow in the Emergency Department, VA Maryland HCS, Baltimore, MD



Current physician staff coverage of the ED is based on the EDIS projected number of
patient visits per hour. Attending physician schedules have been altered to
accommodate patient volumes as determined by EDIS data. One change in physician
coverage implemented in February 2013 was a shift change from a 12 noon to 8 pm
shift to a 2 pm to 10 pm shift. This change in physician coverage has helped improve
patient flow in the evening shift and reduced patient volumes in the nighttime period.

A list of ‘on-call’ physicians who are available to work in the ED has been established
and is used to address any surge in patients. Additional physician coverage has been
in use since in December 2012. One-hundred and seventy additional physician hours
of coverage have been used from January 2013 through June 2013. Surge capacity
through on-call physician back-up coverage remains in place. Staff has been educated
about the guidelines for the deployment of additional physician coverage.

The Physician Assistant (PA) work schedules are designed to meet expected patient
volumes. There are currently three PAs who work staggered shifts (7:00 am – 3:00 pm;
8:30 am – 4:30 pm; 1:00 pm – 9:00 pm) to provide optimal coverage. All three of the
PAs work during the peak patient volume time in the middle of the day.

ED Nurse Staffing

Nursing Service has authorized an increase in the number of nurse staff assigned to
work in the ED. The addition of seven FTEE nurses (4 RN FTEE, 3 LPN FTEE) allows
for an increase in PAR levels for all shifts. The 7:30 am to midnight PAR levels
increased by two (1 RN, 1 LPN). The night shift PAR levels increased by one to four
RNs; which accommodates the staffing needs in triage and for patient transport. The
additional LPN staff is assigned to the non-acute area to ensure dedicated coverage
during the normal operating hours of this area (Monday-Friday, 7:30 am to midnight).
An RN for nursing practice issues supervises the LPNs who work in the non-acute area.

The addition of the LPNs to the non-acute area of the ED has allowed for the
redistribution of existing RNs and Health Techs to the acute and triage areas of the ED
as appropriate. The LPNs will improve communication between the physicians and
nurses about the patient care needs of Veterans being evaluated in this area. The
additional staff is expected to improve the flow of patients through a more timely
completion of orders for nursing care, tests, treatments, etc. Additionally, an RN will be
assigned to supervise the staff in the Fast Track area and through their assessment
bring to the attention of the physicians patients who may require a higher level of care
within the ED.

An ED specific nurse plan has been developed to provide surge nursing coverage. The
surge plan has been presented to the NAGE Union and will be activated when needed.
Managed Care policy 512-101/MC-010, Staffing Guidelines, dated March 2011, has
been updated and is awaiting final concurrence for publication.




VA Office of Inspector General                                                                          14
Inadequate Staffing and Poor Patient Flow in the Emergency Department, VA Maryland HCS, Baltimore, MD



Recommendation 3. We recommended that the Facility Director ensure that data
collection and the reporting process are strengthened.

Concur

Target date for completion: October 2013

Facility response:

The ED will establish a consistent method of collecting and aggregating data relevant to
patient flow length of stay. The indicators will be collected from two areas at the current
time, ED and Mental Health (acute care). The selection was based on monitoring
extended stays in ED and one of the areas impacting patient flow in the ED at a
significant level. The indicators selected serve as proxy indicators of the flow or
impediment to patient flow. The indicators will be tracked and trended. Additional
indicators will be added as needed

The information will be reported through the existing VAMHCS committee structures
from Emergency Care and Compensation/Pension Clinical Center Improvement
Committee and/or Mental Health PI SubCouncil to Executive Performance Improvement
Council (EPIC) and/or Executive Committee of Medical Staff (ECMS) to Executive
Committee of Governing Body (ECGB). The Facility Director is a member of EPIC and
ECMS and the chairperson of ECGB and thus would be apprised in various venues.
The report format will be provided to the ED and MH to standardize reporting.

The report will be presented in the aforementioned venues in September/October 2013.
The reporting will then be continued in the information structure described. This will
strengthen the process of data collection and reporting until the issue resolution is
sustained.

Recommendation 4. We recommend that the Facility director ensure that a local
diversion policy is developed and implemented.

Concur

Target date for completion: February 2013

Facility response:

A diversion policy was written to identify those situations when a patient cannot be
treated due to the lack of an appropriate bed, need for specialized services not available
at VAMHCS, inadequate staffing, acceptance of another patient would jeopardize the
care of current patients or when a disaster disrupts normal operations. The diversion
policy also addresses the need for supplemental staffing, equipment, supplies, and
ancillary services to provide appropriate medical care for patients in the ED. VAMHCS
Policy 512-11/COS-126 which was published to the VAMHCS website in February
2013.



VA Office of Inspector General                                                                          15
Inadequate Staffing and Poor Patient Flow in the Emergency Department, VA Maryland HCS, Baltimore, MD



Since December 2012, there have been 24 transfers from the Baltimore ED to other
non-VA facilities based on diversion guidelines, such as the need for specialized
services not available at the Baltimore VA Medical Center or lack of available beds
during the renovation of Mental Health inpatient ward. These transfers ensured timely
care to Veterans and helped to reduce the number of patients who stayed for extended
periods in the Baltimore ED. Additionally, a Rapid Process Improvement Workshop
(RPIW) on intra/inter-facility transfers was performed to improve the transfer process.

Recommendation 5. We recommended that the Facility Director ensure that the
patient flow committee meets regularly, membership is reviewed for appropriateness,
and follow-up actions are monitored.

Concur

Target date for completion: May 2013

Facility response:

The VAMHCS Flow Committee has been actively involved in the improvement in patient
flow in the Baltimore ED. ED staff have been educated about the role of the Flow
Committee and the Patient Flow staff assigned to facilitate patient flow from the ED. A
meeting schedule for the Flow Committee was published in December 2012 and regular
meetings have been held. The Flow Committee membership has been reviewed and
an interdisciplinary team membership created as well. Dedicated Patient Flow Program
staff was hired to work in the ED to facilitate patient flow from the ED to inpatient wards.




VA Office of Inspector General                                                                          16
Inadequate Staffing and Poor Patient Flow in the Emergency Department, VA Maryland HCS, Baltimore, MD
                                                                                           Appendix C

                 OIG Contact and Staff Acknowledgments
Contact                  For more information about this report, please contact the OIG at
                         (202) 461-4720.
Contributors             Sonia Whig, MS, LDN, Team Leader
                         Gail Bozzelli, RN
                         Nathan Fong, CPA
                         Jerome Herbers, MD
                         Nelson Miranda, LCSW
                         Melanie Oppat, MEd, LDN




VA Office of Inspector General                                                                          17
Inadequate Staffing and Poor Patient Flow in the Emergency Department, VA Maryland HCS, Baltimore, MD
                                                                                           Appendix D



                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VA Capital Health Care Network (10N5)
Director, Baltimore VA Medical Center- VA Maryland Health Care System (512/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
Senate Committee on Homeland Security and Governmental Affairs
Related Agencies
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Benjamin L Cardin, Barbara A.Mikulski
U.S. House of Representatives: Elijah Cummings, John Delaney; Donna F. Edwards,
Andy Harris, Steny H. Hoyer, Dutch Ruppersberger, John P. Sarbanes, Chris Van
Hollen



This report is available on our web site at www.va.gov/oig




VA Office of Inspector General                                                                          18
